March 30, 1999

CHARLES K. KERNAN
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:	     Allegations of Discriminatory Hiring Practices, Harassment, and
              Intimidation of Employees at the Texarkana, Texas Post Office
              (LR-AR-99-007)

This report presents the results of a review at the Texarkana, Texas Post Office
(99-EF-006-LR-000). The report responds to a request from Congressman Jay
Dickey to review allegations of discriminatory hiring practices against blacks
and other minorities.

The audit revealed no evidence of discriminatory hiring practices against blacks
and other minorities at the Texarkana, Texas Post Office. However, our review
disclosed harassment and intimidation of employees, a delay in the provision of
an injury compensation claim form, and physical assaults. We referred an
allegation of theft of postal property to the Postal Inspection Service.
Management agreed to our recommendations and has initiatives planned and in
progress addressing the issues in this report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions, please contact me, at            .


Billy Sauls
Assistant Inspector General
for Employee

Attachment

cc: 	   Yvonne D. Maguire
        John R. Gunnels
Allegations of Discriminatory Hiring Practices, Harassment, and   LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                               Table of Contents



Part I

Executive Summary                                                         1


Part II

Introduction
   Background                                                             3

   Objective, Scope, and Methodology                                      3


Audit Results
  Report of Findings                                                      5

      Discriminatory Hiring Practices                                     5

      Alleged Harassment and Intimidation of Employees                    6


    Provision of an Injury Compensation Form                              8


    Physical Assaults                                                     9


    Issue Referred to Postal Inspection Service                          10 

    Recommendations                                                      11 

    Management Comments                                                  11 

    Evaluation of Management Comments                                    12 



Appendix                                                                  A




                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and               LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office



                             EXECUTIVE SUMMARY

Results in Brief	            This report presents Office of Inspector General (OIG)
                             observations based on our review of allegations of
                             discriminatory hiring practices at the Texarkana,
                             Texas, Post Office. During our review, we received
                             and reviewed additional allegations of harassment
                             and intimidation of employees, failure to provide an
                             injury compensation claim form, physical assaults,
                             and theft of postal property.

                             The audit revealed no evidence of discriminatory
                             hiring practices at the Texarkana, Texas Post Office.
                             However, our review disclosed harassment and
                             intimidation of employees, a delay in the provision of
                             an injury compensation claim form, and physical
                             assaults. We referred an allegation of theft of postal
                             property to the Postal Inspection Service.

                             The Texarkana Post Office was included on the USPS
                             “hot spot”1 list in February 1998, as a site for potential
                             violence. To date, the Dallas District has not
                             conducted a labor climate assessment nor developed
                             the required action plan. Based on our review of the
                             allegations in this report, and the fact that Texarkana
                             was designated a hot spot, we recommend that the
                             district conduct a labor climate assessment
                             immediately and prepare the required action plan.




1
  Hot spots are locations designated by area management as having the potential for violent
behavior. USPS Headquarters directed Area Vice Presidents to develop action plans to correct
identified deficiencies at designated hot spots.



                                             1
                                  Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and       LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office



Recommendations             We offer the following recommendations:

                            The Vice President, Southwest Area, should:

                            1.	 Direct the Dallas District Human Resource
                                Manager to conduct a labor climate assessment
                                at the Texarkana Post Office immediately.

                            2.	 Direct the Dallas District Human Resource
                                Manager to develop and implement the required
                                action plan after the labor climate assessment has
                                been completed at the Texarkana Post Office.

                            3. Review the actions of the Texarkana managers to
                               determine whether corrective and/or disciplinary
                               action is warranted for the failure to provide the
                               Form CA-1 as required by the Employee and
                               Labor Relations Manual.

                            4. Take action to ensure that Texarkana managers
                               provide all injury compensation claim forms for
                               injured employees as required by the Employee
                               and Labor Relations Manual.

                            5. Ensure that Texarkana managers follow proper
                               procedures contained in the Threat Assessment
                               Team Guide regarding reporting and monitoring of
                               violent incidents in the workplace.

Summary of                  The Dallas District Manager agreed to implement all
Management                  of the recommendations for improvement. We
Comments                    summarized the responses on page 11 of this report
                            and included the full text of the comments in
                            Appendix A.

Evaluation of               The Dallas District Manager’s comments are
Management                  responsive to the recommendations identified in the
Comments                    report.




                                           2
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                                INTRODUCTION

Background 	                Congressman Dickey included in the request two
                            letters written by concerned black employees, one
                            dated July 1996 addressed to the Dallas District
                            Human Resources Manager, and the other dated
                            November 1997 addressed to Congressman Dickey.
                            In March 1998, we asked the Vice President, Human
                            Resources, to advise us of actions planned or taken
                            regarding these allegations. In April 1998, the
                            Manager, Personnel Operations Support at USPS
                            Headquarters, denied the allegation of discrimination
                            in hiring. She noted that Dallas District management
                            had openly discussed the alleged discrimination with
                            employees at a focus group meeting at the Texarkana
                            Post Office shortly after receipt of the 1996 letter. She
                            also asserted that the Dallas District Human
                            Resources Manager had no knowledge of any other
                            problems at the Texarkana Post Office until he
                            received the second letter from employees in
                            November 1997. The Manager, Personnel
                            Operations Support, also stated that the allegations in
                            the employees' letters may not be factual and that, if
                            true, the USPS would not have ignored these
                            incidents nor allowed them to continue. She further
                            noted that employees have access to the Equal
                            Employment Opportunity and grievance processes if
                            management does not conform to Postal policies or
                            contractual agreements.

                            We did not believe that the allegations made by
                            Texarkana Post Office employees had been
                            adequately addressed because neither Dallas District,
                            Postal Service Headquarters, nor Postal Inspection
                            Service officials interviewed these employees. The
                            Postal Inspectors at the Southwest District advised us
                            that they were unaware of these allegations until we
                            provided copies of the letters to them in December
                            1998.

Objective Scope And 	 Our objective was to review the allegations made in
Methodology	          the employees’ letters to Congressman Jay Dickey.
                      Further, we wanted to determine if the Postal
                      Inspection Service was aware of the assault
                      allegations.


                                           3
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and       LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office



                            We conducted interviews and obtained documentation
                            from the Postal Inspection Service, Southwest District.
                            We also interviewed eight current craft employees,
                            one former employee, the former officer-in-charge,
                            two current supervisors, and two applicants who were
                            denied employment at the Texarkana Post Office. In
                            Dallas, we interviewed the District Human Resources
                            Manger, the Employee Workplace Intervention
                            Analyst, the Manager of Post Office Operations, the
                            Manager of Metro Area Operations, and other district
                            officials.

                            This audit was conducted from December 1998
                            through February 1999 in accordance with generally
                            accepted government auditing standards. Also, this
                            audit report was prepared in accordance with
                            generally accepted government auditing standards.




                                           4
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and                LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                                    AUDIT RESULTS

Report Of Findings 	           The USPS Equal Employment Opportunity,
                               Affirmative Action, and Diversity Policy states that
                               USPS is committed to following Equal Employment
                               Opportunity laws and their application to all
                               employment matters including hiring, promotions and
                               transfers. The USPS has established a process to
                               address and resolve complaints that arise from
                               alleged discriminatory practices.

Discriminatory Hiring 	        The two letters alleged that no blacks had been hired
Practices 	                    at the Texarkana Post Office from 1981 - 1996. We
                               found that blacks had been hired at Texarkana during
                               this time period. Furthermore, we reviewed the
                               current Texarkana civilian labor force data and the
                               racial profile of the post office and found that black
                               employees represent 22% of the current employees.
                               The city’s black civilian labor force is 14%.
                               Furthermore, our analysis of employees by craft
                               demonstrated that black employees are working as
                               mail handlers (54%), carriers (14%), and clerks (35%).

                               We found no evidence of discriminatory hiring
                               practices at the Texarkana Post Office. One of the
                               individuals interviewed,         , attempted to transfer
                               from another federal agency to the Texarkana Post
                               Office in 1996. The applicant, a ten-year federal
                               employee, applied and interviewed for a part-time
                               flexible distribution clerk position. She was not hired
                               because the selecting official, the Postmaster,
                               determined that her prior attendance record was
                               unacceptable because her sick leave balance was
                               considerably lower than other employees with ten
                               years of service. When asked by the Texarkana
                               Postmaster, she explained that            sick leave had
                               been exhausted for medical visits and recovery due to
                                               .

                               The Postmaster did not hire the employee because
                                    provided no explanation for        low sick leave
                               balance prior to    .2 The applicant filed an Equal
                               Employment Opportunity complaint against the

2
    This decision was per the USPS Equal Employment Opportunity final agency decision.



                                               5
                                    Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            Texarkana Post Office for racial and sexual
                            discrimination. The USPS denied            complaint
                            because         did not explain the low sick leave
                            balance prior to               .

                            OIG’s further analysis also disclosed that during the
                            time period the applicant was seeking employment,
                            four black females were transferred into the
                            Texarkana Post office as distribution clerks. One
                            transferee was from the same agency as the
                            applicant, and the other three from other post offices.
                            The Texarkana Postmaster questioned one of the
                            transferees about her low sick leave balance and
                            provided her the opportunity to explain. This
                            individual provided documentation to support illnesses
                            that had occurred during her years of service. These
                            individuals were hired and currently work at the
                            Texarkana Post Office.

Alleged Harassment          The USPS Joint Statement on Violence and Behavior
and Intimidation of         in the Workplace acknowledges that an unacceptable
Employees                   level of stress exists in some postal workplaces. It
                            further states that the USPS will not tolerate violence,
                            threats of violence, harassment, intimidation, threats,
                            or bullying. Furthermore, every employee at every
                            level should be treated at all times with dignity,
                            fairness, and respect. Those who do not treat others
                            with dignity and respect face disciplinary action and
                            possible removal.

                            Each district office has an Employee Workplace
                            Intervention Analyst. The workplace analyst conducts
                            labor climate assessments at facilities to evaluate the
                            employee and workplace issues and concerns and
                            promote change in management style as appropriate
                            to improve the quality of work life.

                            In Texarkana, employees continue to allege verbal
                            abuse, harassment, and intimidation. Our review
                            disclosed that       engaged in inappropriate
                            behavior that employees perceived as harassing and
                            intimidating. Three       were most consistently
                            identified by these employees as engaging in
                            harassing and intimidating behavior. The eight
                            employees we interviewed described incidents in



                                           6
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            which these      shout at and verbally abuse
                            employees, stand and stare at employees while they
                            work, and provoke hostile confrontations with
                            employees.

                            Of the eight employees to whom we spoke, seven
                            said that they have been verbally abused or witnessed
                            verbal abuse against other employees by the three
                                  . For example, one employee described an
                            incident in which two of the       yelled at and cursed
                            employees, including one employee who was hearing-
                            impaired. Still another employee said that the three
                                   have no respect for individuals and say and do
                            anything they want to, including using bullying
                            behavior and ugly language.

                            Six of the eight employees told us that         stand
                            and stare at employees while they are working. For
                            example, one         employee told us that two
                            have stood so close to         staring that she could
                            “feel their presence.” One         watched         enter
                            the restroom and later told        that        was in
                            there for ten minutes. Another employee said that
                                   reported a       to the local police after an
                            incident in which       came out of the restroom, and
                            he was standing there staring at         .

                            In addition, we reviewed a journal belonging to one of
                            the eight craft employees maintained from 1982 to
                            approximately 1985. The journal described incidents
                                   had observed during          employment with the
                            USPS, and          interaction with        and co-
                            workers at the Texarkana facility. The employee
                            described a stressful working atmosphere due to
                            intimidation and harassment            received in the
                            work place. When OIG interviewed this employee in
                            January 1999,          stated that in the past 12 years,
                            the workplace climate has not improved.

                            In February 1998, the Southwest Area identified the
                            Texarkana Post Office as a hot spot. The USPS
                            Headquarters directed Area Vice Presidents to
                            develop action plans to correct identified deficiencies
                            at designated hot spots. However, Dallas District
                            managers told us they did not have an action plan and



                                           7
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and         LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            they did not provide a reason why an action plan was
                            not prepared for the Texarkana Post Office.

Delay in the                Section 544.12 of the USPS Employee and Labor
Provision of an Injury      Relations Manual states that when an employee is
Compensation Claim          injured while on duty, the immediate supervisor must
Form                        provide the employee with a Form CA-1, Notice of
                            Traumatic Injury and Claim for Continuation of Pay.

                            A USPS contract truck hit a          employee in
                            December 1997. We determined that Texarkana
                            management did not provide the employee with a
                            Form CA-1 until December 1998, one year later. As a
                            result, no injury compensation claim was made on
                                   behalf. This employee fractured vertebrae, lost
                            the use of         left shoulder, and had additional
                            injuries to       elbow, back, and shoulder.
                            was in the hospital for three days and on sick leave for
                            seven weeks.

                            When interviewed, the employee stated that within a
                            week of the accident,         said       requested the
                            form from three different        but did not receive the
                            form.        told us that       then asked the former
                                           for the form. The                did not
                            provide the form, claiming that since the accident was
                            not on postal property, the USPS was not responsible.

                            One of the         confirmed that the employee had
                            requested Form CA-1 and that             had not provided
                            it to       because         was not on duty at the time
                            of the accident.         referred us to the immediate
                                   on duty the night of the accident, who told us
                            that        did not have access to the forms because
                            the         maintained them in a locked room. The
                            immediate          denied that the employee asked
                                   for the claim form.

                            The former                  told us that       did not
                            provide the employee with the form immediately after
                            the injury.       stated that a report was filed with the
                            District Safety and Injury Compensation Offices, and
                            those offices did not instruct        to provide the form
                            CA-1 to the employee.




                                           8
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            In October 1998, the employee wrote to the Dallas
                            District Manager requesting assistance. In November,
                            the District sent a Safety Specialist to investigate the
                            accident. The Safety Specialist had to reconstruct the
                            initial accident investigation and re-interview everyone
                            involved because Texarkana management had lost
                            the case file, including pictures taken at the scene of
                            the accident. The former                    advised us
                            that this file was maintained in a locked room at the
                            Texarkana Post Office.            said that only the
                            Postmaster, the                  , and one
                            had access to this room. During the November
                            investigation, the                 contacted the injured
                            employee to request copies of            documentation
                            because the case file could not be found.

                            In December 1998, one year later, the employee
                            received the form from the new             .

Physical Assaults 	         The Threat Assessment Team Guide states that the
                            USPS Zero Tolerance Policy prohibits any incident of
                            verbal or physical action on the part of any employee
                            that could cause injury to another, and this policy will
                            not be ignored. Employees should report all threats to
                            management, and management should conduct a
                            prompt thorough inquiry and take appropriate action.
                            If the employee is unable to contact a management
                            official, the employee should call the Postal Inspection
                            Service. The Postal Inspection Service will respond,
                            to and investigate all, postal-related physical assaults
                            and credible threats.

                            We reviewed two allegations of physical assaults that
                            occurred in 1988 and 1997. The 1988 incident was
                            handled improperly, and the employee had to seek
                            assistance outside the USPS. This case was
                            ultimately adjudicated in court. The 1997 incident was
                            handled according to procedures.

                            One former craft employee, currently working at
                            another post office, advised us that       was the
                            victim of a physical assault at the Texarkana Post
                            Office in 1988.         stated that a             , who
                            is still employed at the Texarkana Post Office as a
                                    , grabbed       sweater on the workroom floor



                                           9
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            and dragged          to a conference room. The
                            locked the door and continually pushed, shoved,
                            cursed, and verbally abused          on duty.
                            reported the incident to the Postal Inspection Service,
                            but        union steward later informed her that the
                            Postmaster told Postal Inspectors that an investigation
                            was not warranted. The employee filed a complaint
                            with the local police against the      , which was
                            adjudicated in a local court. The        was found
                            guilty and fined for the assault.

                            The                 responsible for that area in 1988
                            told us that      did not recall the incident.       told
                            us that the Postal Inspection Service Database did not
                            contain any information on this incident, and
                            believes that a case was not established since the
                            employee reported the incident to the Texarkana
                            police and the matter was adjudicated in court locally.

                            In the second incident, which occurred in 1997, a
                                   employee kicked another         employee
                            during work hours.        told us that      reported
                            the incident to the               who took written
                            statements from both employees and contacted the
                            Postal Inspection Service. We confirmed that the
                                           had taken written statements from the
                            two employees and sent a memorandum to the Postal
                            Inspection Service, as required by USPS guidelines.

Issue Referred to           During our visit, employees told OIG criminal
Postal Inspection           investigators of possible theft of postal property. The
Service for Further         OIG has referred this information to the Postal
Investigation               Inspection Service, which has jurisdiction over theft of
                            postal property.




                                          10
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and        LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office



Recommendations             We offer the following recommendations:

                            The Vice President, Southwest Area, should:

                            1.	 Direct the Dallas District Human Resource
                                Manager to conduct a labor climate assessment
                                at the Texarkana Post Office immediately.

                            2.	 Direct the Dallas District Human Resource
                                Manager to develop and implement the required
                                action plan after the labor climate assessment has
                                been completed at the Texarkana Post Office.

                            3. Review the actions of the Texarkana managers to
                               determine whether corrective and/or disciplinary
                               action is warranted for the failure to provide the
                               Form CA-1 as required by the Employee and
                               Labor Relations Manual.

                            4. Take action to ensure that Texarkana managers
                               provide all injury compensation claim forms for
                               injured employees as required by the Employee
                               and Labor Relations Manual.

                            5. Ensure that Texarkana managers follow proper
                               procedures contained in the Threat Assessment
                               Team Guide regarding reporting and monitoring of
                               violent incidents in the workplace.

Management 	                The Dallas District Manager agreed to implement all
Comments 	                  of the recommendations for improvement. He stated
                            that many of the corrective actions were in the
                            process of being implemented prior to the OIG report.
                            The District initiated a labor climate assessment on
                            February 20, 1999 at the Texarkana Post Office. In
                            addition, the District Manager has tasked the Manager
                            of Post Office Operations to assist the Texarkana
                            Postmaster in developing and implementing the
                            required action plan for this facility by March 31, 1999
                            and provide quarterly progress reports to him. Also,
                            the District’s Threat Assessment Team has been
                            restructured to function in a more active capacity by
                            meeting once per quarter and/or as needed basis.
                            Furthermore, the Manager Post Office Operations


                                          11
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and      LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office

                            must ensure that all management personnel attend
                            Work Place Violence Awareness Training. The
                            District Manager’s comments are included at
                            Appendix A.

Evaluation of               The Dallas District Manager’s comments are
Management                  responsive to the recommendations identified in the
Comments                    report.




                                          12
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and   LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office



Major Contributors to
This Report:




                                          13
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and   LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office




                                          14                        Appendix A
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and   LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office




                                          15                        Appendix A
                                Restricted Information
Allegations of Discriminatory Hiring Practices, Harassment, and   LR-AR-99-007
 Intimidation of Employees at the Texarkana, Texas Post Office




                                          16                        Appendix A
                                Restricted Information
